 U.S. Department of Agriculture
  Office of Inspector General
       Southeast Region
          Audit Report




     Florida Agricultural and Mechanical
University - Specific Cooperative Agreement
   for Establishment of a Science Center




                    Report No.
                    02007-1-At
                    MARCH 2003
March 31, 2003
                        EXECUTIVE SUMMARY
    FLORIDA AGRICULTURAL AND MECHANICAL UNIVERSITY -
          SPECIFIC COOPERATIVE AGREEMENT FOR
           ESTABLISHMENT OF A SCIENCE CENTER

                      AUDIT REPORT NO. 02007-1-AT

                                     In February 2000, Agricultural Research
      RESULTS IN BRIEF               Service (ARS) entered into a Specific
                                     Cooperative Agreement (SCA) with Florida
                                     Agricultural  and    Mechanical      University
          (FAMU). The purpose of the agreement was to provide funding to
          establish a Science Center (SC) at FAMU. The main purpose of the SC is
          to produce Doctor of Philosophy (Ph.D.) graduates in biology and
          chemistry so they may pursue careers in agricultural research. As of
          November 30, 2001, FAMU had expended $930,431 of the
          $1,750,386 awarded for the SC initiative through fiscal year 2001. The
          SCA is an ongoing long-term effort and funding is anticipated to be about
          $875,000 annually.

            ARS requested that we review FAMU's internal controls, Federal fund
            expenditures, and program management in connection with its
            responsibilities under the SCA. ARS wanted to ensure that the SCA
            initiative was properly focused, consistent with the intent of the original
            appropriation, and had controls in place to accomplish mutual program
            objectives. ARS had been unable to evaluate the progress of the SC
            initiative because of inadequate FAMU reporting. In July 2001, ARS had
            suspended FAMU draws of Federal funds until it met SCA reporting
            requirements. At completion of our fieldwork in May 2002, the suspension
            was still in place.

            Our review found that FAMU charged $560,371 of ineligible and
            unsupported costs to the SCA's (see exhibit A). The questioned charges
            occurred because FAMU did not have administrative control procedures to
            ensure SCA objectives were being achieved and that expenditures were
            appropriate, reasonable, and accurate. For the period February 1, 2000,
            through November 30, 2001, FAMU charged $930,431 to the SCA's. We
            questioned $560,371 of the charges because they were for personnel and
            equipment costs associated with ineligible research projects, instructors'
            salaries that did not increase FAMU's teaching capacity in the SC
            curricula, prohibited and erroneous administrative costs, and equipment
            purchases that were not approved by ARS.


USDA/OIG-A/02007-1-At                                                           Page i
            Since the SC initiative began in February 2000, FAMU had not worked
            with ARS to develop a strategic plan to address how the multiple
            objectives of the SCA would be achieved. Although the first 2 years of
            operations may be characterized as start up, FAMU had allocated no
            funding to the primary objective of the SCA – development of Ph.D.
            programs in biology and chemistry to provide a source of future
            agricultural research scientists.    FAMU had not developed a SC
            implementation plan that contained (1) priorities, goals, and timeframes for
            implementation of the multiple objectives; (2) statements of the scope of
            work to meet those goals and timeframes; and (3) a process or
            methodology for measuring accomplishments and reporting progress in
            achieving the goals. The SCA did not require written plans for achieving
            the SC objectives. As a result ARS cannot determine that FAMU’s level of
            effort towards accomplishing the SCA objective was commensurate with
            the SCA funds it received.

                                       We made a series of recommendations for
  KEY RECOMMENDATIONS                  FAMU to improve its administrative controls
                                       over the program. We also recommended
                                       that ARS      (1) recover, disallow, and/or
         evaluate post justifications, as appropriate, for the $560,371 of questioned
         expenses and (2) work with FAMU to develop a formal plan for
         implementing the SC objectives that includes strategies, priorities, scopes
         of work, timeframes, and methods for measuring accomplishments.

                                     In its March 17, 2003, response to the draft
     AGENCY RESPONSE                 report, ARS stated that it had requested
                                     advice and guidance from the Office of the
                                     General Counsel and would be providing a
         response to each of the findings and recommendations. (See exhibit F.)

                                        The response did not address specific actions
         OIG POSITION                   planned to implement the recommendations.
                                        To accept your management decision, we
                                        need details and timeframes for implementing
            the corrective actions.




USDA/OIG-A/02007-1-At                                                           Page ii
                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS......................................................................................ii
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION...........................................................................................................ii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES.............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................4
CHAPTER 1 ...................................................................................................................4
FAMU NEEDS TO STRENGTHEN CONROLS OVER SCA PROGRAM AND FISCAL
ACTIVITIES ...................................................................................................................4
FINDING NO. 1 ..............................................................................................................4
   RECOMMENDATION NO. 1 ......................................................................................7
   RECOMMENDATION NO. 2 ......................................................................................7
   RECOMMENDATION NO. 3 ......................................................................................7
   FINDING NO. 2 ..........................................................................................................7
   RECOMMENDATION NO. 4 ....................................................................................12
   RECOMMENDATION NO. 5 ....................................................................................13
   FINDING NO. 3 ........................................................................................................13
   RECOMMENDATION NO. 6 ....................................................................................14
   RECOMMENDATION NO. 7 ....................................................................................15
   RECOMMENDATION NO. 8 ....................................................................................15
CHAPTER 2 .................................................................................................................16
FAMU NEEDS TO DEVELOP AN IMPLEMENTATION PLAN FOR THE SC .............16
FINDING NO. 4 ............................................................................................................16
   RECOMMENDATION NO. 9 ....................................................................................18

USDA/OIG-A/02007-1-At                                                                                                  Page iii
EXHIBIT A – SUMMARY OF MONETARY RESULTS ................................................19
EXHIBIT B – EMPLOYMENT COSTS FOR INELIGIBLE SCA RESEARCH
PROJECTS..................................................................................................................20
EXHIBIT C – QUESTIONED ADJUNCT PROFESSOR/INSTRUCTOR AND
GRADUATE TEACHING ASSISTANT COSTS...........................................................21
EXHIBIT D – OTHER INELIGIBLE EMPLOYMENT COSTS CHARGED TO
THE SCA .....................................................................................................................23
EXHIBIT E – QUESTIONED NON-EXPENDABLE EQUIPMENT PURCHASES ........24
EXHIBIT F – ARS RESPONSE TO THE DRAFT REPORT........................................28




USDA/OIG-A/02007-1-At                                                                                                Page iv
                                                INTRODUCTION

                                               The Agricultural Research Service (ARS) is
                BACKGROUND                     the principal in-house research agency of the
                                               U.S. Department of Agriculture (USDA). ARS
                                               research has long been associated with higher
                  production and more environmentally sensitive farming techniques. ARS is
                  also committed to the support and development of the next wave of
                  scientific expertise through Higher Education Programs. One such USDA
                  program is the 1890 Institution Teaching and Research Capacity Building
                  Grants Program. This competitive program builds the institutional capacity
                  of historically Black, 1890 land-grant institutions through cooperative
                  linkages with Federal and non-Federal entities. The program also serves
                  as a means to attract minority students into the food and agricultural
                  sciences, expand the linkages among the1890 institutions and with other
                  colleges and universities, and strengthen the teaching and research
                  capacity of institutions to more firmly establish them as full partners in the
                  food and agricultural science and education system.

                      Parallel with this program, in February 2000, ARS awarded a Specific
                      Cooperative Agreement (SCA)1, to the Florida Agricultural and Mechanical
                      University (FAMU). The purpose of the agreement was to provide funding
                      to establish a Science Center (SC) at FAMU. The main purpose of the SC
                      is to produce Doctor of Philosophy (Ph.D.) graduates with degrees in
                      biology and chemistry interested in agricultural research careers. Other
                      objectives included agricultural research training in the areas of food
                      science, animal, plant, and marine sciences; partnering with ARS in
                      providing experiential learning opportunities for the SC graduate students
                      in ARS research laboratories; conducting cooperative research projects of
                      mutual interest; and building capacity in the biology, chemistry, and
                      agricultural sciences. The SCA is anticipated to be an ongoing long-term
                      cooperative effort.

                      In February 2000, ARS awarded FAMU $865,875 for a SCA (Agreement
                      No. 58-6615-8-022) for the purposes of cooperating in research to develop
                      biological controls for insects and establish a SC at the university. In July
                      2001, ARS and FAMU entered into a new agreement (Agreement No. 58-
                      6601-1-001) that separated the SC initiative from the biological control
                      initiative. The fiscal year (FY) 2001 award of $884,511 was put into the
                      new SCA solely for SC activities. The total award for the two SCA's was
                      $1,750,386. Table 1 shows the SCA budget and actual expenditures as of
                      November 30, 2001.
1
    Under the authority of 7 United States Code (U.S.C). 3318(b).

USDA/OIG-A/02007-1-At                                                                      Page 1
           Table 1
                                 Agreement No.                 Agreement No.
                                  58-6615-8-022                 58-6601-1-001
                             Budgeted       Expended       Budgeted       Expended
           Personnel        $400,660       $463,883        $763,781        $37,436
           Equipment        $410,000       $282,944         $38,750             -0-
           Materials
           and Supplies       $35,000      $131,895         $52,980          $7,219
           Travel             $20,215        $7,054         $24,000              -0-
           Publication
           Costs                  -0-            -0-         $5,000             -0-
               Total        $865,875       $885,776        $884,511        $44,655

           As of November 30, 2001, FAMU had charged $930,431 to the two SCA's
           of which $76,817 was for the biological control initiative and $853,614 was
           for the SC initiative. At the completion of our fieldwork in May 2002,
           FAMU had been reimbursed $63,150 for the biological control initiative
           and $613,300 for the SC initiative. The remaining $13,667 of biological
           control expenditures and $240,314 of SC expenditures were pending
           reimbursement due to ARS' suspension of funding in July 2001. In
           addition to suspending reimbursements, at the same time ARS requested
           this audit and in cooperation with FAMU created a Steering Committee to
           review SC research projects for compliance with the SCA. These actions
           were taken because of ARS' concerns the program was not implemented
           consistent with the intent of the original appropriation.

                                       ARS requested that we review FAMU's
         OBJECTIVES                    internal controls, Federal fund expenditures,
                                       and program management in connection with
                                       its responsibilities under the SCA.      ARS
          wanted to ensure that the SCA initiative was properly focused, consistent
          with the intent of the original appropriation, and had controls in place to
          accomplish mutual program objectives.

                                       The audit was conducted in accordance with
            SCOPE                      generally accepted government auditing
                                       standards. Funds totaling $1,750,386 were
                                       awarded to meet the objectives of the
           SCA for “Biological Control of Insect Pests”; and the SCA for the “Florida
           A&M University Science Center of Excellence."             We examined
           the management, disbursement, accounting, and propriety of expenditures
           of $930,431 FAMU charged to the two SCA accounts as of November 30,
           2001.




USDA/OIG-A/02007-1-At                                                         Page 2
           Audit fieldwork was conducted from January 8, 2002, to April 26, 2002.
           The work was performed at the ARS South Atlantic Area office in Athens,
           Georgia, and at facilities of FAMU located in Tallahassee, Florida.


                                      To accomplish the audit objectives we:
       METHODOLOGY


           •     Interviewed applicable ARS and FAMU officials and staff.

           •     Reviewed and evaluated legislative history, regulations, policies
                 and procedures, as well as objectives, requirements, and
                 instructions contained in the SCA's.

           •     Identified, reviewed, and evaluated FAMU's administrative controls
                 for ensuring compliance with the SCA.

           •     Reviewed FAMU's program and accounting records pertinent to the
                 SCA.

           •     Inventoried non-expendable equipment purchased with SCA funds
                 and evaluated its use.

           •     Analyzed FAMU expenditures for eligibility.




USDA/OIG-A/02007-1-At                                                          Page 3
                       FINDINGS AND RECOMMENDATIONS


      CHAPTER 1                     FAMU NEEDS TO STRENGTHEN CONROLS OVER
                                       SCA PROGRAM AND FISCAL ACTIVITIES

                      FAMU charged $560,371 of ineligible and unsupported costs to the SCA's.
                      The questioned charges occurred because FAMU did not have
                      administrative control procedures to ensure SCA objectives were being
                      achieved and that expenditures were appropriate, reasonable and
                      accurate. For the period February 1, 2000, through November 30, 2001,
                      FAMU charged $930,431 to the SCA's of which $76,817 was for the
                      biological control initiative and $853,614 was for the SC initiatives. We
                      found that the charges for the biological control initiative were generally
                      proper. Of the $853,614 charged for the SC initiatives, we questioned
                      $560,371 (66 percent) because the charges were for personnel and
                      equipment costs associated with ineligible research projects, instructors'
                      salaries that did not build FAMU's teaching capacity in the SC curricula,
                      prohibited and erroneous administrative costs, and equipment purchases
                      that were not approved by ARS (see exhibit A).

                                           FAMU did not have administrative control
            FINDING NO. 1                  procedures to ensure that (1) SCA objectives
                                           were being achieved; (2) expenditures were
       FAMU HAD NOT DEVELOPED              appropriate, reasonable, and accurate; and
       ADMINISTRATIVE CONTROLS             (3) progress reports submitted to ARS
         OVER SCA ACTIVITIES               contained sufficient information to assess the
                                           progress. As a result, $560,371 of program
               expenditures were questioned because the projects and activities they
               were spent on were ineligible.

                      The cooperator must comply with standards for financial management
                      systems for recipients of Federal funds (grants, cooperative agreements)
                      contained in Federal regulations. Cooperators must also have effective
                      internal controls to ensure that expenditures financed with Federal funds
                      are properly chargeable to the grant supported project."2

                      The SCA required FAMU to work closely with ARS in developing and
                      performing mutually agreed to research projects, developing plans of work
                      to be performed, and identifying graduate students for experimental
                      learning opportunities working with ARS scientists. To facilitate this

2
    7 Code of Federal Regulations (CFR) part 3015, section 3015.61 (c), effective January 1, 2001.

USDA/OIG-A/02007-1-At                                                                                Page 4
           cooperation between the university and ARS, the agreement called for
           designating a FAMU employee as the principal investigator (PI)
           responsible for coordinating the SC efforts to accomplish the SCA
           objectives.

           The SCA also required FAMU to submit quarterly progress reports to
           ARS. The reports were to include progress in accomplishing established
           goals, problems encountered or occurrence of unusual or favorable
           developments during the report period, and a summary of work to be
           accomplished in the next reporting period.

           Control Procedures

           Even though the Dean of the College of Engineering Sciences,
           Technology, and Agriculture was the PI designated to oversee SC
           activities, the Dean of the College of Arts and Sciences directed the work
           and managed the funds of the SC. FAMU and the Dean of the College of
           Arts and Sciences did not keep the PI informed of SC activities. The Dean
           of the College of Arts and Sciences (the SC Director), did not coordinate
           with the PI in (1) planning and conducting SC work,
           (2) developing research projects, (3) managing SCA funds, and
           (4) preparing progress reports to ARS. The PI wanted some of the
           research funds to go to the school of agriculture but none were allocated
           to it. The PI did not know the SC initiative had begun until he contacted
           ARS in the fall of 2000 to inquire about the SCA status.

           FAMU did not have a methodology for tracking (1) costs by SCA objective,
           initiative, and research project; (2) progress on each activity; and (3)
           graduate students’ progress towards obtaining a degree in a field of
           mutual interest to ARS. Examples were:
.
           •     FAMU used a standard cost accounting system which accumulated
                 cost by account number and broad object codes (i.e., personnel).
                 FAMU did not have procedures to track cost by SCA initiative (i.e.,
                 research projects) and staff did not review monthly financial data to
                 ensure that costs were relevant to an objective of the SCA and the
                 amounts charged to the SCA were correct. According to the
                 designated PI, he tried to get the financial data and analyze it but
                 the university would not provide it to him.

           •     The university grants professors release time from teaching classes
                 to do research if outside funds (i.e., SCA) are available to hire
                 replacement adjunct faculty to pick up the course load. FAMU
                 claimed $210,511 reimbursement for the release time of
                 10 professors who worked on SC research projects. Instead of
                 using those funds to hire replacement faculty, the university
                 claimed $96,993 for the costs of the adjunct faculty to increase

USDA/OIG-A/02007-1-At                                                         Page 5
                 teaching capacity. FAMU staff could not tell us how the release
                 time funds were used to the benefit of the SC or how the adjunct
                 faculty increased teaching capacity.

           •     FAMU could not show us how much each research project had cost
                 so far, what research accomplishments have benefited ARS, and
                 what graduate students worked on which projects and what they
                 did.

           As reported in Findings Nos. 2 and 3, most of the expenditures claimed for
           reimbursement for the SC were ineligible because research projects were
           not eligible, teaching capacity was not increased, and equipment
           purchases were not approved by ARS in advance. In addition, some
           costs were charged to the SCA in error but were not detected because the
           SC Director did not periodically review them.

           Progress Reporting

           FAMU was required to submit quarterly performance/progress reports to
           ARS.      The reports FAMU submitted to ARS did not address
           accomplishments or plans for most of the SCA objectives. The reports
           were required to (1) compare actual accomplishments with goals
           established for the reporting period, (2) state the reasons for any slippage
           in meeting objectives, (3) outline problems encountered or the occurrence
           of unusual or favorable developments during the period, and (4) briefly
           summarize work to be accomplished during the next reporting period.
           Reports should be organized by SCA objective and work activity so that
           the reviewers can determine that all objectives and work were included
           and could evaluate accomplishments or lack thereof for each objective.

           Between February 2000 and January 2002, FAMU submitted five reports
           that did not fully address SCA objectives and accomplishment of goals for
           the reporting period. The first three reports contained several paragraphs
           on the general accomplishments of the SC but did not provide details. For
           example, one report contained a statement that, “Graduate students
           assisted in teaching laboratories and building laboratories of interest.
           Faculty taught courses, planned research, and purchased some
           equipment and supplies.” The report (1) did not list any goals for these
           activities during the period; (2) did not provide any details about who were
           the graduate students and faculty, what courses they taught, what
           laboratories they helped build and what they did to help build them, what
           research was planned, what equipment was purchased, and the costs
           associated with the accomplishments; and (3) did not relate the
           accomplishments to SCA objectives.

           The last two reports did not describe overall accomplishments for the SC.
           Although the September 25, 2001, report did discuss the research

USDA/OIG-A/02007-1-At                                                          Page 6
           projects, the USDA members of the Steering Committee found it did not
           provide enough information to evaluate how the projects contributed to
           achieving the SCA objective. The reports did not adequately describe the
           work to be performed in the next progress reporting period because work
           was described in general terms and no period for accomplishing the work
           was stated.

                                       Require FAMU to develop and implement
  RECOMMENDATION NO. 1                 procedures that require expenditures be
                                       reviewed and approved by the designated PI
                                       before they are submitted for reimbursement.

                                       Require FAMU to track costs by SCA
  RECOMMENDATION NO. 2                 objective and individual project.


                                  Require FAMU to submit quarterly progress
  RECOMMENDATION NO. 3            reports that include accomplishments, reasons
                                  for any slippage in meeting objectives,
                                  problems encountered, and a summary of
        work to be accomplished during the next reporting period.

           ARS Response

           In its March 17, 2003, response to the draft report, ARS stated that it had
           requested advice and guidance from the Office of the General Counsel
           (OGC) and would be providing a response to each of the findings and
           recommendations. (See exhibit F.)

           OIG Position

           The response did not address specific actions planned to implement the
           recommendations. To accept your management decision, we need details
           and timeframes for implementing the corrective actions.

                                    FAMU charged the SCA for salaries and
      FINDING NO. 2                 associated employee benefits for (1) time its
                                    staff spent on ineligible research projects;
  FAMU CHARGED INELIGIBLE           (2) professors, adjunct instructors, and
 EMPLOYEE EXPENSES TO THE           graduate students who taught core courses
            SCA                     without building teaching capacity; and
                                    (3) other ineligible work. Before commencing
                                    the SC initiatives, FAMU officials did not work
         with ARS or the PI in planning the activities and projects to be performed
         to ensure compliance with the SCA objectives. In addition, they did not
         review monthly expenditures for propriety. As a result, FAMU charged
         $290,628 of questioned salary and benefit costs to the SCA account.

USDA/OIG-A/02007-1-At                                                         Page 7
                  The primary objective of the SCA3 was to establish a SC at FAMU that
                  would produce Ph.D. degrees in biology and chemistry to train career
                  agricultural research scientists; partner with ARS to provide experiential
                  learning opportunities for SC graduate students; and develop cooperative
                  research projects of mutual interest with ARS. In addition, the agreement
                  called for capacity building to support the mission of training students in
                  biology, chemistry, and agricultural sciences. The purpose for funding
                  "capacity building" is to strengthen the teaching and research capacity in
                  the food and agricultural science and education system similar to the
                  1890 Institution Teaching and Research Capacity Building Grants
                  Program4. The SCA stated that no administrative costs would be
                  reimbursed and the university would provide staff necessary to support the
                  SC.

                  As of November 30, 2001, FAMU had charged $501,319 to the SCA
                  account for personnel costs associated with 48 employees. The charges
                  were for time professional and administrative staff and student assistants
                  spent working on research projects, administrative and teaching duties,
                  and other activities. Our review questioned the propriety of $290,628 of
                  the $501,319 in personnel costs and associated benefits charged to the
                  SC account. (See table 2.)

                  Table 2
                  Personnel Activities                                               Charges            Questioned
                  Research Projects - professors/scientists,
                  graduate assistants, and research
                  assistants                                                         $345,067             $134,376
                  Capacity Building Teaching - professors,
                  adjunct instructor, and graduate assistants                          96,993               96,993
                  Administrative/Other                                                 59,259               59,259
                  Total                                                              $501,319             $290,628

                  Further details are presented below and in exhibits B, C, and D.

                  •    Personnel Costs Charged for Ineligible SCA Research Projects

                       Between February 1, 2000, and November 30, 2001, the SC charged
                       $345,067 in personnel costs to the SCA for work related to
                       10 research projects. Of that amount, we questioned $134,376 (see
                       exhibit B). The funds were questioned because the projects that the
                       personnel worked on did not meet SCA objectives of research in the
                       food and agricultural sciences. The research was primarily in the


3
  SCA No. 58-6615-8-022, Amendment 3, dated February 2, 2000.
4
 USDA, “1890 Institution Teaching and Research, Capacity Building Grants Program Annual Summary, FY 1999,” dated September
1999.

USDA/OIG-A/02007-1-At                                                                                           Page 8
              biomedical field. FAMU did not consult with ARS and the designated
              PI as to the eligibility of the projects before commencing work on them.

              The majority of the personnel costs charged to research projects were
              for FAMU professors who worked on the projects. The remainder was
              spent on graduate students and research assistants who worked with
              the project leaders. A percentage of the project leaders' salaries and
              benefits was allowed to be paid from SCA funds in order to release
              them from part of their academic work so they could conduct the
              research.

              In July 2001, ARS suspended funding for the SC due to concerns
              regarding the management and direction of SC activities. At that time,
              ARS entered into a new SCA with FAMU that required all research
              projects (including existing ones) be jointly planned and reviewed by a
              Steering Committee that was to be assembled. The projects were to
              be reviewed for compliance with requirements of the agreement and
              their benefits to the food and agricultural sciences. The Steering
              Committee was to consist of ARS and FAMU representatives.

              The personnel costs charged for 4 of the 10 projects were questioned
              because the projects did not meet the objective of the SCA that they
              benefit the food and agricultural sciences. Prior to December 2000,
              the SC had dropped one project: “Relations Between Insulin
              Resistance and Hyperinsulinemia in Rats,” (project A) that costs
              had been charged to. FAMU had determined it did not meet the
              objectives of the SCA. When the USDA members of the Steering
              Committee reviewed the September 2001 progress report on the nine
              remaining projects, they found that the report did not provide sufficient
              information to determine if they met the objectives of the SCA. The
              Steering Committee decided that all nine project leaders had to submit
              a detailed proposal to the Steering Committee for evaluation before
              continued funding for the projects could be approved. Seven of the
              nine project leaders submitted proposals for their current projects to
              the committee. The eighth project leader submitted a new project
              proposal because he believed his old project, “A Study of Light-
              Induced Signal Transduction Pathways in Plants and Bacteria” (project
              B), would not meet SCA objectives. The ninth project leader did not
              submit a proposal because of health problems.

              The Steering Committee did not approve two of the eight project
              proposals submitted because they did not meet the SCA objectives.
              The two projects were: “Modeling the Disabling Mechanism of Nisin,
              an Antimicrobial Peptide Used as a Food Additive,” (project C) and
              “The Biochemical and Nutritional Effect of a DM Tea Blend (from



USDA/OIG-A/02007-1-At                                                          Page 9
               G.Latifolium Leaves) on NIDDM (Non-Insulin Dependent Diabetes
               Mellitus)” (project D).

               In addition to the four projects not meeting requirements of the SCA,
               they were not a training ground for graduate assistants interested in
               careers in food and agricultural sciences--an objective of the SCA. We
               interviewed graduate student research assistants whose costs were
               charged to the SC research projects. All the students said they had no
               interest in pursuing careers in the food and agricultural sciences. One
               student was pursuing a Ph.D. in pharmacology and the others were
               pursuing studies in the biomedical field.

               Based on the SC staff's determination that projects A and B did not
               meet SCA objectives, and the Steering Committee's same
               determination for projects C and D, we questioned the
               $134,376 charged to the four projects. The charges included salaries
               and associated employer taxes and benefits of professors and
               graduate and research assistants who worked on the four projects. Of
               the $134,376, FAMU was reimbursed $79,308 and was pending
               reimbursement of another $55,068 due to the July 2001 suspension of
               funding. (See exhibit B.)

           •   Personnel Costs Charged to the SCA For Building Teaching
               Capacity That Was Not Obtained

               We questioned the $96,993 FAMU charged to the SCA account for
               building teaching capacity. The charges were for professors, adjunct
               instructors, and graduate students to teach 38 undergraduate classes,
               34 of them were first year courses in basic biology and chemistry.
               None of the courses were in agricultural and food sciences. (See
               exhibit C.) FAMU officials stated that the teaching expenses were
               incurred to build capacity under the terms of the SCA. However, the
               university had no system to measure and track "capacity building" and
               no documented plan for increasing capacity. Our analysis of the
               curricula and classes offered showed FAMU had not expanded its
               teaching capacity.

               The term "capacity building" is not clearly defined in the SCA, or in
               ARS or FAMU policy.         "Capacity building" generally means to
               strengthen the teaching and research capacity of the institution. The
               SCA states that "capacity building" is necessary for the successful
               implementation of the SC initiative and that it includes acquisition of
               equipment and personnel to train scientists in biology, chemistry, and
               agricultural and food sciences (health, animal sciences, plant sciences,
               agricultural engineering, natural resources, and aquaculture).
               According to ARS staff, the agency intended to allow a


USDA/OIG-A/02007-1-At                                                         Page 10
                broad definition of "capacity building" so that funds could be used for
                undergraduate courses to increase the university's teaching capacity.

                In February 2000, FAMU began charging costs to the SCA for the start
                of SC operations. Our review of classes for the 1998 through
                2001 period showed no increase in the number offered or total
                enrollment in the courses whose costs were charged to the SCA.
                Table 3 shows the number of classes offered by FAMU departments,
                which comprised the SC.

                Table 3
                                                  Number of Classes Offered
                   Semester/Year                1998         1999           2000                          2001
                   Fall                          185          166           164                            149
                   Spring                        178          170           145                            143
                   Summer                         37           37            37                            42
                        Total                    400          373           346                            334

                Further analysis showed no increase over prior years in the specific
                basic courses for which the SCA was charged. Table 4 shows the
                number of basic biology and chemistry classes taught, enrollment in
                the courses, and average enrollment per class by school year.

                Table 4
                                   No. of Classes /Enrollment / Average Enrollment
                                        Basic Biology and Chemistry Classes
           Course                    Term             1998                  1999               2000              2001
           BSC 1005 Lab              Spring     13 / 337 / 25.9      13 / 337 / 25.9     11 / 317 / 28.8  11 / 291 / 26.5
                                     Fall       18 / 350 / 19.4      18 / 380 / 21.1     18 / 379 / 21.1  11 / 291 / 26.5
           BSC 1005 Lecture          Spring      5 / 361 / 72.2        5 / 415 / 83.0     5 / 373 / 74.6   5 / 339 / 67.8
           BSC 1010 Lab              Fall       18 / 437 / 24.3      18 / 391 / 21.7     18 / 397 / 22.1  17 / 73 / 4.3
           BSC 1010 Lecture          Spring      2 / 182 / 91.0        2 / 183 / 91.5     1 / 104 / 104.0  1 / 114 / 114.0
           BSC 1011 Lab              Spring     10 / 211 / 21.1      10 / 237 / 23.7      7 / 204 / 29.1   7 / 230 / 32.9
                                     Fall        3 / 101 / 33.7        3 / 78 / 26.0      3 / 67 / 22.3    3 / 37 / 12.3
           BSC 1011 Lecture          Fall        1 / 102 / 102.0       1 / 91 / 91.0      1 / 82 / 82.0    1 / 32 / 32.0
           CHM 1030 Lecture          Spring      1 / 37 / 37.0         1 / 24 / 24.0      1 / 26 / 26.0    1 / 45 / 45.0
           CHM 1031 Lab              Spring      2 / 48 / 24.0         2 / 32 / 16.0      2 / 53 / 26.5    2 / 39 / 19.5
           CHM 1031 Lecture          Spring      1 / 52 / 52.0         1 / 48 / 48.0      1 / 54 / 54.0    1 / 45 / 45.0
           CHM 1045 Lab              Spring     12 / 287 / 23.9      12 / 316 / 26.3     18 / 312 / 39.0  18 / 335 / 18.6
                                     Fall       19 / 339 / 17.8      18 / 312 / 39.0     18 / 315 / 39.4  14 / 30 / 2.1
           CHM 1045 Lecture          Spring      5 / 357 / 71.4        5 / 404 / 80.8     5 / 387 / 77.4   5 / 373 / 74.6
           CHM 1046 Lab              Spring     11 / 239 / 21.7      11 / 221 / 20.1     11 / 201 / 18.3  11 / 210 / 19.1
           Figures in bold are for terms in which "capacity building" costs were charged to the SCA for:
           BSC 1005 = Biological Science               CHM 1030 = Introduction to Chemistry for Non-Science Majors
           BSC 1010 = General Biology I                CHM 1031 = Organic Chemistry for Non-Science Majors
           BSC 1011 = General Biology II               CHM 1045 = General Chemistry I
           CHM 1046 = General Chemistry II


                We concluded that the university did not use the $96,993 to increase
                teaching capacity in biology, chemistry, agricultural and food sciences.
                Instead of increasing, the number of classes in these subject areas
                generally declined. (See table 3 and 4.) Therefore, the SCA funds

USDA/OIG-A/02007-1-At                                                                                        Page 11
               appear to have offset FAMU's normal operating costs in the biology
               and chemistry departments rather than increasing teaching capacity.


           •   Other Ineligible Employment Costs Charged to the SCA

               FAMU charged $59,259 to the SCA for prohibited administrative
               activities and erroneous charges. Details are presented below and in
               exhibit E.

               − $26,636 was charged to the SCA for costs associated with a dean,
                 clerical assistant, and undergraduate student assistant even though
                 their duties were administrative. The SCA prohibited payment of
                 administrative expenses.

               − $19,203 was erroneously charged for 5 graduate assistants, a
                 research assistant, and an undergraduate student assistant instead
                 of the activities they were employed for as documented in their pay
                 records. Their duties were not related to the SC activities.

               − $5,190 was overpaid to 4 graduate students and an adjunct
                 instructor based on the lower agreed to pay rates documented in
                 their pay records.

               − $5,050 was erroneously paid to 4 graduate students for classes
                 they did not teach.

               − $3,180 was charged to the SCA for 2 undergraduate students who
                 worked as assistants in laboratory classes. The SCA does not
                 provide for assisting undergraduate students.

               At the conclusion of our fieldwork, FAMU had been reimbursed
               $56,883 of the questioned $59,259 with the remaining $2,376 pending
               reimbursement.

           In summary, at the completion of our fieldwork, FAMU had been
           reimbursed $233,184 for personnel costs associated with ineligible
           research projects, teaching and administrative duties, and erroneous
           charges. Due to the funding suspension, another $57,444 of ineligible
           personnel costs were pending reimbursement.

                                      Recover the $233,184 reimbursed for
  RECOMMENDATION NO. 4                ineligible personnel expenses and disallow the
                                      $57,444 pending reimbursement.




USDA/OIG-A/02007-1-At                                                      Page 12
                                                         Require FAMU to develop and implement a
    RECOMMENDATION NO. 5                                 formal plan to show how SCA funds spent will
                                                         "build capacity."

                  ARS Response

                  In its March 17, 2003, response to the draft report, ARS stated that it had
                  requested advice and guidance from OGC and would be providing a
                  response to each of the findings and recommendations. (See exhibit F.)

                  OIG Position

                  The response did not address specific actions planned to implement the
                  recommendations. To accept your management decision, we need details
                  and timeframes for implementing the corrective actions.

                                      FAMU did not obtain the prior approval of ARS
        FINDING NO. 3                 before purchasing 66 items of equipment
                                      costing $269,743.     The university did not
       FAMU PURCHASED                 comply   with SCA  requirements   that it obtain
    UNAUTHORIZED EQUIPMENT            approval from ARS before purchasing the
                                      equipment and bypassed the designated PI in
                                      the decision-making process. As a result,
           36 of the items costing $131,136 were ineligible because they were used
           for administrative purposes or for research projects not of mutual interest
           to ARS. The remaining 30 items costing $138,607 were for post approved
           research projects. (See exhibit E.) However, FAMU had not justified the
           need for each item of equipment to ARS and obtained its approval for the
           expenditures.

                  ARS5 requires that cooperators justify the need for nonexpendable
                  equipment. The justification should show what will be purchased with
                  Federal funds and how it will be used under the agreement. If the need
                  for equipment arises after funds are awarded, the authorized department
                  officer (ADO) must approve the expenditure before the cooperator
                  proceeds with the purchase. ARS6 relies on the ADO approval to maintain
                  ongoing oversight of expenditures. This mechanism, when working as
                  intended, allows the agency to be an active participant in the agreement
                  and gauge research progress and expenditure propriety.

                  In April 2000, FAMU began purchasing equipment to be used on research
                  projects. However, it did not work with either ARS or the designated PI to
                  ensure that the projects met the objectives of the SCA (see Finding
                  No. 1).     Between April 2000 and August 2001, FAMU charged
5
 ARS Manual 280.0, Extramural Agreements, Chapter 2100, Section 2101.3, "Preparation of the Request Packages", April 1994.
6
 ARS Manual 280.0, Extramural Agreements, Chapter 1200, Section 1203, "Definitions", and Chapter 2100, "Specific Cooperative
Agreements", Section 2103.2.2, "Purchase of Nonexpendable Equipment", April 1994.

USDA/OIG-A/02007-1-At                                                                                           Page 13
                      66 nonexpendable equipment items7 valued at $269,743 to the SCA
                      account. FAMU did not request ARS approval to purchase the items or
                      consult with the PI regarding the purchases.

                      Because of concerns about how the SCA was being managed, ARS in
                      cooperation with FAMU established a Steering Committee to assist in the
                      planning, coordination, and review of the research projects. ARS
                      suspended funding on the projects until FAMU submitted justification for
                      them and the Committee determined whether they met the objectives of
                      the SCA. Justifications were not submitted for two projects because
                      FAMU staff believed they would not qualify under the SCA. The
                      committee determined that two other projects did not meet SCA objectives
                      (see Finding No. 1). FAMU had already purchased equipment for three of
                      the four projects.

                      Our review showed that 36 items purchased for $131,136 were used for
                      the 3 ineligible research projects and administrative purposes. The other
                      30 items costing $138,607 were acquired for post approved research
                      projects but FAMU had not provided ARS with justifications why each item
                      was needed to support the projects (see table 5 and exhibit E).

                      Table 5
                                                             No. of                                  Reimbursement
                                                             Items            Cost                Paid         Pending
                      Ineligible Research Projects             28          $ 121,808             $ 105,184       $ 16,624
                      Ineligible Administrative Use             8            $ 9,328                 9,328              0
                      Subtotal                                 36          $ 131,136             $ 114,512       $ 16,624
                      Eligible Research Project                30          $ 138,607                98,438         40,169
                      Total                                    66          $ 269,743             $ 212,950       $ 56,793


                      At the completion of our fieldwork, FAMU had been reimbursed
                      $114,512 for the 36 ineligible items. Due to ARS' suspension of funding,
                      the remaining $16,624 was pending reimbursement. Also, FAMU had not
                      provided ARS with post justification to support the $138,607 charged to
                      the eligible research projects.

                                                                Recover the $114,512 reimbursed for the
      RECOMMENDATION NO. 6                                      36 ineligible items and disallow the
                                                                $16,624 pending reimbursement.




7
    Items with a value of $1,000 or more are classified as nonexpendable property and inventoried.




USDA/OIG-A/02007-1-At                                                                                            Page 14
                                Evaluate FAMU's post justifications for the
  RECOMMENDATION NO. 7          30 items costing $138,607 and determine if
                                they are essential to support the research
                                projects.      Recover    and/or    disallow
        reimbursement of the costs for any items that are not essential and
        justified.

                                       Require FAMU to establish procedures that
  RECOMMENDATION NO. 8                 ensure written approval from the ADO is
                                       obtained before purchasing any equipment to
                                       be reimbursed from SCA funds and not listed
           in the SCA.

           ARS Response

           In its March 17, 2003, response to the draft report, ARS stated that it had
           requested advice and guidance from OGC and would be providing a
           response to each of the findings and recommendations. (See exhibit F.)

           OIG Position

           The response did not address specific actions planned to implement the
           recommendations. To accept your management decision, we need details
           and timeframes for implementing the corrective actions.




USDA/OIG-A/02007-1-At                                                        Page 15
                                 FAMU NEEDS TO DEVELOP AN IMPLEMENTATION
    CHAPTER 2
                                             PLAN FOR THE SC

                                              Since    the    SC    initiative   began     in
               FINDING NO. 4                  February  2000,  FAMU    had   not worked with
                                              ARS to develop a strategic plan to address
                                              how the multiple objectives of the SCA would
                  be achieved.      Although the first 2 years of operations may be
                  characterized as start up, FAMU had allocated no funding to the primary
                  objective of the SCA – development of Ph.D. programs. FAMU had not
                  developed a SC implementation plan that contained (1) priorities, goals,
                  and timeframes for implementation of each objective; (2) statements of the
                  scope of work to meet those goals and timeframes; and (3) a process or
                  methodology for measuring accomplishments and reporting progress in
                  achieving goals. The SCA did not require written plans for achieving the
                  SC objectives. As a result ARS could not determine whether FAMU’s
                  level of effort towards accomplishing the SCA objectives was
                  commensurate with the SCA funds it received.

                    The cooperative agreement is a legal instrument8 used to form a
                    relationship between USDA and a cooperator. The agreement objectives
                    must serve the mutual interests of both parties in agricultural research,
                    extension, and teaching activities. The SCA between ARS and the
                    cooperator should describe in detail a jointly planned, executed, and
                    funded research program, or project9.

                    The objectives of the SCA10 with FAMU were to establish a SC that would
                    produce Ph.D. graduates with degrees in biology and chemistry interested
                    in agricultural research careers. Other objectives were to train agricultural
                    research career scientists in the areas of health, food science, animal,
                    plant, and marine sciences; partner with ARS in providing experiential
                    learning opportunities for SC graduate students; and develop and execute
                    cooperative research projects of mutual interest with ARS. The initiative
                    would be implemented in multiple stages. Implementation would include
                    "capacity building" to develop infrastructure (including equipment,
                    supplies, and personnel), establishing state of the art biology and
                    chemistry research laboratories, and cooperating with ARS in developing
                    and performing mutually agreed to research projects.




8
  7 U.S.C. 3318, “Contract, grant, and cooperative agreement authorities,” January 2, 2001
9
  ARS Manual 280.0, Extramural Agreements, Chapter 2100, dated April 1994.
10
   Amendment 3 to SCA number 58-6615-8-022, dated February 2, 2000.


USDA/OIG-A/02007-1-At                                                                        Page 16
           The SCA contained eight objectives for the SC and required FAMU to
           work closely with ARS in developing plans for accomplishing the
           objectives. The university had not worked with ARS in planning work
           to be performed and did not have any written plans for accomplishing
           the SCA's multiple objectives.     Between February 1, 2000, and
           November 30, 2001, FAMU charged $853,614 to the SC initiative. Of that
           amount, $701,179 (82 percent) related to a single objective – research
           projects.

           At the completion of our fieldwork, FAMU had not started implementing
           the primary objectives of the SCA. For example:

           •   Development of doctoral degree granting graduate programs in the SC
               disciplines of biology, chemistry, and related agricultural sciences –
               Although this was the primary objective of the SCA, at the completion
               of our fieldwork, FAMU had not acted on it. FAMU did not have a
               formal plan for the development of doctoral degree granting programs
               in the SC disciplines of biology, chemistry, and related agricultural
               sciences or a joint plan with another school with accredited Ph.D.
               programs in those fields. The university must develop the academic
               requirements necessary for obtaining a degree and reasonable
               timeframes for completing the requirements, determine and procure
               the amount of human and physical resources needed to support all the
               requirements, and develop a system of evaluating degree candidates'
               suitability for award of the degree.

           •   Recruitment of graduate students committed to obtaining their doctoral
               degrees in biology, chemistry, and related food agricultural sciences –
               FAMU did not have a formal plan for recruiting graduate students
               committed to obtaining their doctoral degrees in biology, chemistry,
               and related food agricultural sciences or a system to track their
               progress and costs relative to the SCA objectives. In addition, biology
               and chemistry Ph.D. candidates would have to pursue the degree at
               another school because FAMU does not have a doctorial program in
               those disciplines. The SCA did not state how much of the recruiting
               effort should be directed at agricultural sciences and how much to
               biology and chemistry in areas not related to agricultural. In order for
               its recruiting effort to comply with ARS and SCA requirements, the plan
               would need to show a level of commitment to producing career
               agricultural research scientists acceptable to ARS.

           Although the years 2000 and 2001 may be characterized as a startup
           phase for the SC, the number and scope of the objectives require
           extensive planning.    Proper planning should include (1) prioritizing
           objectives and relating implementation strategies and activities to the
           accomplishment of each objective, (2) developing goals and timeframes

USDA/OIG-A/02007-1-At                                                         Page 17
            for accomplishments of the objectives, (3) determining in detail the scope
            of the work to be accomplished for each activity, (4) financing for activities
            to be performed, and (5) tracking performance and submitting
            comprehensive progress reports to ARS.


                                   Amend the SCA to require that FAMU work
  RECOMMENDATION NO. 9             with ARS to develop a mutually agreeable SC
                                   implementation plan, updated annually, which
                                   prioritizes the multiple objectives, strategies,
        and work to be performed. Require that the plan include goals to be
        accomplished for each activity, scopes of work to be performed,
        timeframes for completing the actions planned, and an objective
        methodology for measuring accomplishments.              Suspend further
        reimbursements until the implementation plan is developed.

            ARS Response

            In its March 17, 2003, response to the draft report, ARS stated that it had
            requested advice and guidance from OGC and would be providing a
            response to each of the findings and recommendations. (See exhibit F.)

            OIG Position

            The response did not address specific actions planned to implement the
            recommendations. To accept your management decision, we need details
            and timeframes for implementing the corrective actions.




USDA/OIG-A/02007-1-At                                                            Page 18
EXHIBIT A – SUMMARY OF MONETARY RESULTS

FINDING
NUMBER           DESCRIPTION                    AMOUNT            CATEGORY
   2    Ineligible research projects,
        teaching, and other cost
        charged to SCA
                                                           Questioned cost - Recovery
                    • Paid                      $233,184   recommended
                    • Pending Reimbursement      $57,444   FTBPTBU1 - Savings
        3           Ineligible equipment cost
                    charged to SCA
                                                           Questioned cost - Recovery
                    •    Paid                   $114,512   recommended
          • Pending Reimbursement                $16,624   FTBPTBU-Savings
    3     Equipment purchased without                      Unsupported cost -
          justification                         $138,607   Recovery recommended
Total Monetary Result                           $560,371
1
    Funds to be put to better use.




USDA/OIG-A/02007-1-At                                                       Page 19
     EXHIBIT B – EMPLOYMENT COSTS FOR INELIGIBLE SCA RESEARCH
                 PROJECTS

               Project                                                        Ineligible Costs
Cod                                     Employee                                                      Total
e                  Name                  Code        Position   Reimbursed          Pending          Charged
A       Relations between Insulin
        Resistance              and
        Hyperinsulinemia in Rats             28      AP         $ 3,008.83                       $    3,008.83

B       A Study of Light-Induced
        Signal      Transduction             10      AP         $ 2,846.13      $     682.73     $    3,528.86
        Pathways in Plants and
        Bacteria                             35      GA           2,344.68                            2,344.68
    Project Total                                               $ 5,190.81      $     682.73     $    5,873.54

C       Modeling    the    Disabling
        Mechanism of Nisin, an                 6     AP         $ 3,205.24      $23,765.71       $ 26,970.95
        Antimicrobial Peptide Used
        as a Food Additive                   32      GA           15,458.82       1,875.20         17,334.02
    Project Total                                               $ 18,664.06     $25,640.91       $ 44,304.97

D       The Biomechanical and                  1     AP         $ 16,038.04     $23,118.27       $ 39,156.31
        Nutritional Effect of a DM             4     GA           15,156.60                          15,156.60
        Tea      Blend    (from    G.
        Latifolium     Leaves)     on        19      GA           12,139.17         1,875.20         14,014.37
        NIDDM            (Non-Insulin        33      GA           16,581.86         1,875.20         18,457.06
        Dependent            Diabetes
        Mellitus)                            36      GA           12,143.82         1,875.20         14,019.02
    Project Total                                               $ 72,059.49     $28,743.87       $100,803.36

Accounting Adjustments                  Not Identified          $(19,614.77                      $(19,614.77)
                                                                          )

Total for Ineligible SCA Research Projects                      $ 79,308.42     $55,067.51       $134,375.93
AP      = Assistant Professor (Faculty Project Leader)
GA      = Graduate Assistant




     USDA/OIG-A/02007-1-At                                                                           Page 20
EXHIBIT C – QUESTIONED ADJUNCT PROFESSOR/INSTRUCTOR
            AND GRADUATE TEACHING ASSISTANT COSTS
                                                                          Page 1 of 2
Employee                                                                    Payroll
 Code        Period Taught                 Position     Courses Taught     Expense
                                 Graduate Teaching
    9      08/08/00 - 09/30/00                        BSC 1005, Sec L13     $    405.60
                                 Assistant
   18      01/05/00 - 05/01/00   Instructor           BSC 1011, Sec L05         3,689.76
                                                      CHM 1030, Sec 001
   27      01/05/00 - 05/01/00   Instructor                                     5,803.19
                                                      CHM 1031, Sec 001
   17                            Graduate Teaching    CHM 1045, Sec L07
           01/05/00 - 05/01/00                                                  4,001.56
                                 Assistant            CHM 1045, Sec L11
                                 Graduate Teaching    CHM 1045, Sec L05
   19      01/05/00 - 05/01/00                                                  2,477.64
                                 Assistant            CHM 1045, Sec L08
   37      01/05/00 - 05/01/00   Instructor           BSC 2094, Sec L06         4,847.96
   23      08/08/00 - 09/30/00   Graduate Assistant   BCH 4033, Sec L05         1,300.27
                                                      BSC 1005, Sec 001
   22      01/05/00 - 05/01/00   Instructor                                     3,885.21
                                                      BSC 1005, Sec L11
   14                                                 CHM 1031, Sec L01
           01/05/00 - 05/01/00   Instructor                                     5,167.23
                                                      CHM 1031, Sec L02
    3                            Graduate Teaching    BSC 1005, Sec L09
           08/08/00 - 05/07/01                                                  2,177.35
                                 Assistant            BSC 1005, Sec L17
   30      01/05/00 - 05/01/00   Instructor           CHM 1045, Sec L03         2,179.38
   13      01/05/00 - 05/01/00   Professor            CHM 1045, Sec 002         2,623.38
                                                      CHM 1045, Sec 005
                                                      CHM 1046, Sec L06
   12      01/05/00 - 05/01/00   Instructor                                  18,054.42
                                                      CHM 1046, Sec L08
                                                      CHM 1046, Sec L12




USDA/OIG-A/02007-1-At                                                       Page 21
                                                                                           Page 2 of 2

Employee                                                                                      Payroll
 Code          Period Taught                 Position                Courses Taught          Expense
             01/05/00 - 05/01/00                                    CHM 1045, Sec L09
                                   Graduate Teaching Assistant                               $ 3,474.56
                Spring 2000                                         CHM 1046, Sec L07

             08/08/00 - 09/30/00                                    CHM 1045, Sec L14
                                   Graduate Assistant                                          6,597.48
    40       10/01/00 - 05/07/01                                    CHM 1045, Sec L19
                Fall 2000

             10/01/00 - 05/07/01                               CHM 1045, Sec L09
                                   Graduate Assistant                                          5,547.61
                Spring 2001                                    CHM 1046, Sec L07
                                                               CHM 3121, Sec 001
    20       01/05/00 - 05/01/00 Professor                                                     7,548.28
                                                               CHM 3121, Sec L01
                                                               BSC 1010, Sec 001
    15       01/05/00 - 05/01/00 Graduate Teaching Assistant                                   4,037.94
                                                               BSC 1011, Sec L01
                                                               BSC 1010, Sec L03
                                                               BSC 1010, Sec L14
    26       08/08/00 - 09/30/00 Assistant Professor                                          10,602.41
                                                               BSC 1011, Sec 001
                                                               BSC 1011, Sec L02
                                                               CHM 1045, Sec L04
    34       01/05/00 - 05/01/00 Graduate Teaching Assistant                                   2,572.16
                                                               CHM 1045, Sec L10
Total Ineligible Adjunct Professor/Instructor and Graduate Assistants Cost                   $96,993.39

BCH 4033:   Biochemistry I                CHM 1030:     Introduction to Chemistry for Nonscience Majors
BSC 1005:   Biological Science            CHM 1031:     Organic Chemistry for Nonscience Majors
BSC 1010:   General Biology I             CHM 1045:     General Chemistry I
BSC 1011:   General Biology II            CHM 1046:     General Chemistry II
BSC 2094:   Anatomy and Physiology II     CHM 3121:     Advanced Analytical Chemistry

Section numbers that begin with 0 are lecture classes.
Section numbers that begin with L are laboratory classes.




USDA/OIG-A/02007-1-At                                                                          Page 22
    EXHIBIT D – OTHER INELIGIBLE EMPLOYMENT COSTS CHARGED TO
                THE SCA
                                                                    Ineligible Costs
Error                        Employee     Position   Reimbursed        Pending       Total Charged
                              Code
Administrative Costs             11       CA          $19,547.72                           $19,547.72
Charged to the SCA               24       D             4,536.21                             4,536.21
                                 38       SA            2,552.00                             2,552.00
   Total                                              $26,635.93                           $26,635.93

Employee’s Expenses                4      GRA          $2,477.64                            $2,477.64
Misclassified by Account           9      GTA           2,346.08                             2,346.08
Number                            23      AR            2,353.24                             2,353.24
                                  34      GA            4,997.15                             4,997.15
                                  39      GTA           4,123.52                             4,123.52
                                  41      GA            1,440.00                             1,440.00
                                  45      SA                            $1,465.67            1,465.67
   Total                                              $17,737.63        $1,465.67          $19,203.30

Expenses Charged to the            3      GTA          $ 670.76                             $ 670.76
SCA for Work not                   5      GTA           2,477.64                             2,477.64
Performed                         16      GA              601.02                               601.02
                                  23      GA            1,300.25                             1,300.25
   Total                                               $5,049.67                            $5,049.67

Employee’s Pay in Excess           3      GTA          $1,048.35                            $1,048.35
of Agreed Rate for the             9      GTA             157.00                               157.00
Assignment Charged to the         15      GTA             601.41                               601.41
SCA                               22      I             2,472.39                             2,472.39
                                  42      GA                              $910.40              910.40
   Total                                               $4,279.15          $ 910.40          $5,189.55

Expenses for                      25      SA           $1,680.00                            $1,680.00
Undergraduate Students            31      SA            1,500.00                             1,500.00
  Total                                                $3,180.00                            $3,180.00

Total Other Ineligible Employment Costs               $56,882.38        $2,376.07          $59,258.45

AR = Assistant in Research    GA = Graduate Assistant              I = Instructor (Adjunct Faculty)
CA = Clerical Assistant       GRA = Graduate Research Assistant    SA = Student Assistant
D = Dean                      GTA = Graduate Teaching Assistant




    USDA/OIG-A/02007-1-At                                                                     Page 23
EXHIBIT E – QUESTIONED NON-EXPENDABLE EQUIPMENT
            PURCHASES
                                                                                            Page 1 of 4

                                                                                            Cost
                      Primary use of equipment              Description        Reimbursed   Pending    Total
Ineligible        A Study of Light-Induced Signal         Incubator, Fisher      $ 1,596              $  1,596
Research          Transduction Pathways in Plants and     Incubator, Fisher         1,596                1,596
Project           Bacteria                                Incubator/Shaker          5,650                5,650
                                                          Fraction Collector        1,825                1,825
                                                          Gradient Monitor          1,177                1,177
                                                           Chart Recorder           2,265                2,265
                                                             UV Monitor             2,038                2,038
                                                          Unit Gene Pulser          2,900                2,900
                                                             Pump Rack              3,195                3,195
                                                           Gradient Pump                    $ 3,471      3,471
                                                          Fraction Collector                  1,955      1,955
                                                          Fraction Collector                  1,955      1,955
                     Project Total                                              $ 22,242    $ 7,381   $ 29,623

                  Modeling the Disabling Mechanism
                  of Nisin, an Antimicrobial Peptide     Computer, 230 S/G      $   3,262                 3,262
                  Used as a Food Additive               Computer, Octane S/G
                                                                                  25,108                 25,108
                    Project Total                                               $ 28,370              $ 28,370

                  The Biochemical and Nutritional          Micro centrifuge     $   6,733             $   6,733
                  Effect of a DM Tea Blend (from          Fraction Collector        1,373                 1,373
                  G.Latifolium Leaves) on NIDDM         Sonic Dismembrator          1,406                 1,406
                  (Non-Insulin Dependent Diabetes          Circulator, Digtl        2,381                 2,381
                  Mellitus)                             Freezer/Refrigerator        1,820                 1,820
                                                         Evaporator, Rotary         2,933                 2,933
                                                         Ultra Low Freezer          8,956                 8,956
                                                           Vacuum Pump              1,875                 1,875
                                                          Chromatography
                                                             Refrigerator           5,170                 5,170
                                                         Power Gen. 1800D                   $ 6,275       6,275
                                                        Sonic Dismembrator                    1,790       1,790
                                                        Freeze Dry Vacuum
                                                                Pump                1,905                1,905
                                                        Saw tooth Generator                   1,178      1,178
                                                         Spectrophotometer        20,020                20,020
                     Project Total                                              $ 54,572    $ 9,243   $ 63,815

Total Ineligible Projects                                                       $105,184    $16,624   $121,808




USDA/OIG-A/02007-1-At                                                                         Page 24
                                                                                          Page 2 of 4

                                                                                          Cost
                  Primary use of equipment                 Description       Reimbursed    Pending       Total
Ineligible        General use by the entire Chemistry
Administrative    Department                                  Copier          $   1,299              $    1,299
Use               Chemistry Department faculty
                  member not involved in SC             Computer, Gateway-        1,147                   1,147
                  research.                                  GP71
                  Chemistry Department faculty
                  member not involved in SC             Computer, Gateway-        1,147                   1,147
                  research.                                  GP71
                  Chemistry Department faculty
                  member not involved in SC             Computer, Gateway-        1,147                   1,147
                  research.                                  GP71
                  Chemistry Department faculty
                  member not involved in SC             Computer, Gateway-        1,147                   1,147
                  research.                                  GP71
                  Chemistry Department secretary        Computer, Gateway-        1,147                   1,147
                                                             GP71
                  Chemistry Department secretary        Computer, Gateway-        1,147                   1,147
                                                             GP71
                  Chemistry Department Chair            Computer, Gateway         1,147                   1,147
                                                             733SE
Total Ineligible Administrative                                               $   9,328              $    9,328

Total Ineligible Equipment Expenditures                                       $114,512    $16,624    $131,136




USDA/OIG-A/02007-1-At                                                                        Page 25
                                                                                            Page 3 of 4

                                                                                           Cost
               Primary use of equipment                 Description          Reimbursed    Pending   Total
Eligible       Detection and Identification of   Incubator CO2                   $ 5,135             $ 5,135
Research       E.Coli 0157:h7 in Goat Herds      Top-loading Balance               1,150               1,150
Project -                                        Freezer                           5,942               5,942
Property Not                                     Centrifuge, MR231                 8,781               8,781
Approved for                                     Micro centrifuge                  1,895               1,895
Purchase
                                                 Eppendorf, Thermal Cycler         3,350               3,350
                                                 Strata linker                     1,512               1,512
                                                 Hybridization Oven                1,850               1,850
                                                 Vacuum Blotter                    1,783               1,783
                                                 Freezer/Refrigerator              1,295               1,295
                  Project Total                                                  $32,693             $32,693

               Spectroscopic and Biochemical     Econ Pump                       $ 1,800             $ 1,800
               Studies of Plant Signal           Computer, Gateway 733SE           1,147               1,147
               Transduction Mechanisms           Computer, Gateway 733SE           1,147               1,147
                  Project Total                                                  $ 4,094             $ 4,094

               Laser Remote Sensing of           Dual Power EPM Meter            $ 1,924             $ 1,924
               Pesticides and Metallic           Spectrometer, Fiber Optic         3,844               3,844
               Contaminants                      Computer, Gateway
                                                 M9333U/G                          2,659               2,659
                                                 Labview Systems for
                                                 Windows                           1,577               1,577
                                                 Spectrometer, Pro-3001           16,863              16,863
                                                 Computer, Laptop Apple                    $ 3,570     3,570
                                                 SYS., Detector                             24,396    24,396
                  Project Total                                                  $26,867   $27,966   $54,833

               Agricultural Applications of      Top-loading Balance             $ 1,638             $ 1,638
               Carbon Nanotubes                  Buchl Evap Plast                  2,696               2,696
                                                 Circulator                        1,500               1,500
                                                 Glovebox                         13,073              13,073
                                                 Computer, Gateway-GP71            1,147               1,147
                                                 Assem Magnet Bore                         $12,203    12,203
                  Project Total                                                  $20,054   $12,203   $32,257




USDA/OIG-A/02007-1-At                                                                          Page 26
                                                                                         Page 4 of 4

                                                                                        Cost
                  Primary use of equipment              Description       Reimbursed   Pending       Total
Eligible        Territorial Competition Among
Research        Foraging Workers of an Enclosed      200m Microscope       $   1,150             $ 1,150
Project -       Laboratory    Community       of
Property Not    Colonies of the Red Imported       Plant Growth Chamber        8,999                  8,999
Approved for    Fire Ant
Purchase           Project Total                                           $ 10, 149             $ 10,149

                Solution Structure of the Pepsin
                Inhibitor PI-3                     Software-Mathematica    $   2,011             $ 2,011
                                                   for SGI
                   Project Total                                           $   2,011             $ 2,011

                Shared Use by All Projects as
                Necessary                          Ice Machine             $   2,570             $    2,570

Total Property Not Approved for Purchase                                   $ 98,438    $40,169   $138,607

Total Questioned Property Purchased for SCA                                $212,950    $56,793   $269,743




USDA/OIG-A/02007-1-At                                                                       Page 27
EXHIBIT F – ARS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/02007-1-At                          Page 28
Informational copies of this report have been distributed to:

Agency Liaison Officer, ARS (6)
General Accounting Office (1)
Office of the Chief Financial Officer (1)
Farm and Foreign Agricultural Division (6)
